i

No.

THE SUPREME COURT OF THE UNITED STATES

RONALD BURKE,
Petitioner,
v.
STATE OF WASHINGTON,
Respondent.

DECLARATION OF SERVICE
I, Mark Middaugh, do swear or declare that on this date, June 8, 2021, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party’s counsel. With the consent of
opposing counsel, I served the foregoing by sending the documents via email to the
address below.
The name and address of those served are as follows:
Theodore Michael Cropley
930 Tacoma Ave S Rm 946
Tacoma, WA 98402-2171
Theodore.cropley@piercecountywa.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 8, 2021

Mark B. Middaugh
Attorney for the Petitions

